   July 16, 2004




Audit Oversight

Quality Control Review of
PricewaterhouseCoopers, LLP and
the Defense Contract Audit Agency
Office of Management and Budget
Circular A-133 Audit Report of the
Institute for Defense Analyses, Fiscal
Year Ended September 28, 2001
(D-2004-6-007)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Office of Audit Policy and Oversight at (703) 604-8760 or fax
  (703) 604-9808.

  Suggestions for Future Reviews

  To suggest ideas for or to request future reviews, contact Audit Policy and
  Oversight at (703) 604-8760 (DSN 664-8760) or fax (703) 604-9808. Ideas and
  requests can also be mailed to:

                                      OIG-APO
                    Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 1015)
                              Arlington, VA 22202-4704




Acronyms
DCAA                  Defense Contract Audit Agency
FFRDC                 Federally Funded Research and Development Center
GAS                   Government Auditing Standards
IDA                   Institute for Defense Analyses
OIG                   Office of the Inspector General
OMB                   Office of Management and Budget
PwC                   PricewaterhouseCoopers, LLP
QCR                   Quality Control Review
SEFA                  Schedule of Expenditures of Federal Awards
determine whether the audit was conducted according to generally accepted auditing
standards, Government Auditing Standards (GAS), and the auditing and reporting
requirements of OMB Circular A-133. We also reviewed corrective actions taken by
PwC as a result of a QCR we performed on the FY 1998 single audit of IDA (see OIG
DoD Report Number D2000-6-008, “Quality Control Review of PricewaterhouseCoopers
LLP, for OMB Circular A-133 Audit Report for Institute for Defense Analyses,
Fiscal Year Ended September 25, 1998,” August 14, 2000).

Review Results. The DCAA auditors did not plan and perform the FY 2001 single audit
to ensure compliance with auditing standards and the guidance and requirements in OMB
Circular A-133 and its related Compliance Supplement. As a result, the auditors did not
properly identify and test the Special Tests and Provisions compliance requirement,
follow up on omissions from the Schedule of Expenditures of Federal Awards (SEFA),
and sufficiently document the basis for assessing that the Program Income and
Subrecipient Monitoring compliance requirements were not applicable (Finding A).

The DCAA auditors did not document audit work in accordance with Government
Auditing Standards and DCAA audit guidance. Because, in certain instances, the audit
procedures were not sufficiently documented, we could not rely solely on the working
papers to determine whether there was sufficient evidence to support the auditors’
opinion and conclusions. As a result, DCAA auditors were required to provide extensive
verbal explanations to demonstrate that the auditors performed the appropriate sampling
and followup audit procedures, and for us to determine whether the audit documentation
supported all the facts and conclusions in the single audit report (Finding B).

The DCAA report opinion on compliance with Federal program requirements and the
report on the SEFA were not prepared in accordance with auditing standards and the
requirements of OMB Circular A-133. As a result of the DCAA departure from the
standard reporting language, it is unclear whether the scope of the DCAA audit met the
Circular requirements (Finding C).

The IDA audit report generally met the reporting requirements in OMB Circular A-133;
however, the SEFA did not include all the information required by OMB Circular A-133.
As a result, Federal program officials may not be able to fully use the SEFA in their
monitoring efforts (Finding D).

The PwC audit of the financial statements generally met the applicable auditing standards
and OMB Circular A-133 requirements. During our review we discussed opportunities
for enhancements to audit documentation with the audit team. In addition, PwC auditors
adequately implemented corrective actions in response to recommendations in our QCR
of the FY 1998 single audit of IDA. These issues are discussed in the “Other Matters of
Interest” section of this report.

Management Comments and Reviewer Response. Management concurred, or
concurred in principle, with the recommendations. Comments from the Branch Manager,
DCAA Chesapeake Bay Branch Office and the Treasurer, IDA were responsive;
therefore, no additional comments are required. Management Comments are discussed in
the findings and are included in their entirety at the end of this report.

Finding A. Audit Planning and Performance. The DCAA auditors did not plan the
audit to include testing of the DoD FFRDC sponsoring agreement provisions. As a


                                            2
result, they incorrectly determined that the Special Tests and Provisions compliance
requirement was not applicable and they did not perform sufficient procedures to
determine whether the SEFA was complete. In addition, the audit documentation did not
provide enough information to determine whether the auditors performed sufficient
procedures to support the conclusion that the Program Income and Subrecipient
Monitoring requirements were not applicable.

        Special Tests and Provisions Compliance Requirement and the Review of the
Schedule of Expenditures of Federal Awards. DCAA incorrectly determined that the
Special Tests and Provisions compliance requirement was not applicable based on a
limited review of IDA contracts and on discussions with IDA personnel. The auditors
should have reviewed the FFRDC sponsoring agreements. However, the audit
documentation does not indicate that the auditors reviewed the agreements. The
requirement for an FFRDC to have a written sponsoring agreement is in the Federal
Acquisition Regulation Subpart 35.017, “Federally Funded Research and Development
Centers” and the “Department of Defense Federally Funded Research and Development
Center (FFRDC) Management Plan.” The sponsoring agreements are required to have,
among other things, provisions that delineate procedures and limitations that the FFRDC
is subject to. Both sponsoring agreements contained such provisions related to work
performed by IDA for “nonsponsor” entities.

As a result of the failure to review the sponsoring agreement, the auditors did not follow
up on a discrepancy identified in the review of the SEFA. Required by OMB Circular
A-133 §___.310(b), the SEFA is a schedule prepared by Federal award recipients. The
SEFA must include all Federal awards as defined in the Circular and is the basis for the
auditor’s risk assessment process that determines which Federal award programs are
included in the single audit.

The DCAA auditors performed limited procedures in the review of the SEFA. As a result
of those audit procedures, however, the auditors identified a $309,000 difference between
the SEFA and the audited financial statements. DCAA documented that this difference
was not material and did not perform any additional procedures. However, in the course
of our review, we identified an indirect cost submission schedule prepared by IDA and
reviewed by the DCAA auditors that included expenditures of approximately $311,000
for four programs annotated as “non-DoD.” DCAA did not perform audit procedures to
determine whether these programs were properly excluded from the SEFA or whether the
“non-DoD” work complied with the FFRDC sponsoring agreements procedures and
limitations for “nonsponsor” activity.

As a result of these deficiencies in audit planning and performance, the single audit report
does not assure the DoD sponsor program administrators that IDA has complied with
sponsoring agreement requirements. In addition, program administrators for the “non-
DoD” awards may not be aware of the amount of funds actually expended. DCAA
auditors need to perform additional audit procedures to determine whether IDA was in
compliance with the FFRDC sponsoring agreement provisions and whether the SEFA is
complete. DCAA auditors also need to revise the FY 2001 single audit report if
necessary based on the results of the additional work.




                                             3
       Applicability of Program Income and Subrecipient Monitoring
Requirements. The DCAA audit documentation did not support the determination made
by DCAA that Program Income and Subrecipient Monitoring requirements were not
applicable.

               Program Income. DCAA auditors determined the Program Income
compliance requirement was not applicable to IDA based on limited testing and
discussions with IDA personnel. The DCAA auditor based the determination on the
review of a contract that began in FY 2001 and the results of the prior fiscal year single
audit. As a result of the supervisory review, the auditor was directed to review the
FY 2001 audited financial statements for indications of program income. The
documentation states that based on this review DCAA did not identify any program
income, and therefore, no further audit procedures were performed.

We retested the auditor’s conclusion on the review of the FY 2001 financial statements
and found that the financial statements identified approximately $10,000 in
“miscellaneous income.” However, there was no documentation to demonstrate that the
auditor performed procedures to determine the source or nature of the “miscellaneous
income” in order to conclude that it was not related to a program funded with Federal
award dollars. As a result of the lack of documentation, we were unable to determine the
exact basis for the conclusion that the program income requirement was not applicable
and whether it was supported by sufficient evidence.

               Subrecipient Monitoring. DCAA auditors determined that the
requirement to monitor subrecipients was not applicable because IDA did not provide
more than $300,000 in pass-through awards to any individual non-profit entity during
FY 2001. As a result of this determination, the auditors did not perform any audit
procedures to test IDA responsibility under OMB Circular A-133 § ___.400(c)(3) to
monitor subrecipients.

The auditor’s justification for determining that the subrecipient monitoring requirement
was not applicable is incorrect because it was based on a misinterpretation of OMB
Circular A-133 requirements. The $300,000 referenced by the auditor relates to the
threshold amount that establishes the requirement for an entity to have a single audit.
The Circular does not establish a threshold requirement for monitoring subrecipients.
OMB Circular A-133 §__.400(c)(3) requires the monitoring of subrecipient activities “as
necessary to ensure that Federal awards are used for authorized purposes in compliance
with laws, regulations, and the provisions of contracts or grant agreements….”
Furthermore, the Circular requires the auditor to determine whether the auditee has
complied with requirements that have a direct and material effect on major programs.

During discussions with the DCAA auditors, the auditors stated that the subrecipient
monitoring requirement was not applicable because IDA did not provide funding to other
entities “to carry out a program,” but rather “to provide a service to IDA.” However, we
were unable to find documentation of audit procedures, in support of the DCAA verbal
statements, to determine the nature of the subcontractor effort. In addition, the DCAA
auditors stated that the $1.7 million paid to subcontractors was not a material amount in
relation to the major program. However, the audit documentation did not contain a
materiality determination, and we were unable to otherwise verify that materiality was
part of the reason why DCAA determined this was not an applicable compliance
requirement.




                                             4
DCAA needs to perform and document additional audit procedures, as appropriate, to
ensure that the audit documentation supports the determination on the applicability and
materiality for all compliance requirements.

Recommendation A.

        A.1. We recommend that the Branch Manager, Defense Contract Audit Agency
Chesapeake Bay Branch Office perform additional audit procedures for the Office of
Management and Budget Circular A-133 audit report for the Institute of Defense
Analyses (the Institute) for FY 2001 to determine whether the Institute is in compliance
with Federally Funded Research and Development Centers sponsoring agreement
requirements and if the Schedule of Federal Expenditures is complete, and provide our
office with the supporting documentation. The report should be revised, if needed, based
on the results of the additional audit work.

Management Comments. The Branch Manager, DCAA Chesapeake Bay Branch Office
concurred and stated that his office will review the sponsoring agreements for special
tests and provisions and take additional actions, if warranted. The Branch Manager also
stated that his office will conduct additional analysis of the differences between the
SEFA and the financial statements to determine whether the SEFA is properly stated and
the contractor is in compliance with the provisions of the sponsoring agreements. The
Branch Manager expects all additional work to be completed not later than July 31, 2004,
and will provide us with supporting documentation.

        A.2. We recommend that the Branch Manager, Defense Contract Audit Agency,
Chesapeake Bay Branch Office perform additional procedures to determine whether the
Program Income and Subrecipient Monitoring requirements are applicable. Based on the
results of the additional audit work, we further recommend that any appropriate
procedures be performed and the report be revised as necessary.

Management Comments. The Branch Manager, DCAA Chesapeake Bay Branch Office
concurred and stated that his office will review all income sources in the financial
statement to determine whether the Program Income and Subrecipient Monitoring
compliance requirements applied in FY 2001 and, if the Program Income and
Subrecipient Monitoring compliance requirements did apply, will perform additional
steps to ensure that IDA complied with the Compliance Supplement. If necessary, his
office will revise the report. The Branch Manager expects all additional work to be
completed not later than July 31, 2004, and will provide us with supporting
documentation.

Finding B. Documentation of Audit Work. DCAA auditors did not adequately
document all relevant audit procedures and conclusions in accordance with GAS and
DCAA audit guidance. Also, they did not follow DCAA quality control procedures for
ensuring that the audit report statements and conclusions were supported by sufficient,
competent, and relevant evidence. Specifically, DCAA audit documentation did not
provide sufficient support related to the following:

       •   The sampling plan designed to test internal control and compliance objectives
           for the Cash Management, Equipment and Real Property, and Procurement
           compliance requirements;



                                            5
       •    The follow-up procedures performed to determine the reasonableness of the
            Summary Schedule of Prior Audit Findings; and,
       • Stated references for the facts and conclusions presented in the OMB Circular
            A-133 draft report.
As a result, DCAA auditors were required to provide extensive verbal explanations to the
OIG reviewer to demonstrate that the auditors performed the appropriate sampling and
followup audit procedures. In addition, extensive verbal explanations were required for
the OIG reviewer to determine whether the audit documentation supported all the facts
and conclusions in the single audit report.

        Sampling Plan Design. The auditors did not document the design of the
sampling plans used to test internal control and compliance with the Cash Management,
Equipment and Real Property, and Procurement requirements. Specifically, DCAA
auditors did not sufficiently document the sampling plan to include the objective of the
sample, a description of the sampling universe, the basis for the sample size, and the
method of sample selection. As a result of the lack of documentation of the sampling
plans, we needed to conduct extensive interviews with the auditors to determine that the
judgmental sampling provided sufficient relevant evidence to support the audit
conclusions.

        Support for the Determination on the Reasonableness of the Summary
Schedule of Prior Audit Findings. The DCAA audit documentation did not contain
procedures to support the “Auditor’s Comments on Summary Schedule of Prior Audit
Findings” in the FY 2001 single audit report. The FY 2001 single audit reporting
package included a “Summary Schedule of Prior Audit Findings.” The report stated that
DCAA auditors performed procedures to assess the reasonableness of the summary
schedule and that auditors determined that the schedule accurately represented the status
of corrective actions taken in response to the FY 2000 OMB Circular A-133 audit.
However, according to the FY 2001 audit documentation, the auditor concluded during
the course of the audit that there were no findings in the FY 2000 report and, therefore,
no further procedures were necessary. Our review of the prior audit report disclosed a
reported finding and recommendation related to the proposed Cost of Money Factors and
prior recommendations for IDA to prepare written policies and procedures for the Labor,
Accounting, and Other/Indirect Cost systems.

We discussed the inconsistency between the audit documentation and the statements in
the audit report with the DCAA auditors. They advised us that the auditor incorrectly
determined during audit work that there were no findings in the FY 2000 report but that
this mistake was identified during the supervisory review and described procedures taken
to assess the reasonableness of the IDA assertions. In addition, the DCAA auditor
advised the reviewer that the auditor failed to initially identify the existence of prior audit
findings because they were not reported in the FY 2000 “Schedule of Findings and
Questioned Costs.” The deficiencies were, however, mentioned in the “Scope of Audit”
section and discussed in more detail in the “Auditee Organization and Systems” section
of the audit report.

       Stated References for Facts and Conclusions in Audit Report. The audit
documentation for the FY 2001 single audit did not include a copy of the draft report that
was cross-referenced to the supporting working papers. As a result, we were unable to
determine the basis for several statements in the DCAA report and had to rely on


                                               6
extensive discussions with DCAA auditors to determine whether the required audit work
had been conducted. Both the DCAA Quality Control System as described in the DCAA
Contract Audit Manual, Chapter 2-S10, “Engagement Performance,” and the DCAA
OMB Circular A-133 standard audit program require that a printed copy of the draft audit
report, cross-referenced to the working papers, be retained in the audit working paper
package. Completion of this requirement ensures that facts and figures are accurate and
complete, and that all statements in the audit report are supported by audit
documentation.

Conclusion. The DCAA Contract Audit Manual and the DCAA OMB Circular A-133
audit program provide auditors guidance regarding documentation of audit work. We
believe the lack of implementation of existing guidance contributed to the issues
discussed in both this finding and Finding A. The DCAA Headquarters Quality
Assurance Division has also identified documentation issues in their reviews and has
developed general training on audit documentation. All DCAA auditors will receive this
training by September 30, 2004. The Branch Manager, DCAA Chesapeake Bay Branch
Office also needs to ensure that the OMB Circular A-133 audit work is adequately
documented, to include documentation of judgmental sampling plans and
cross-referencing of draft audit reports.

Recommendation B. We recommend that to improve future audits, the Branch
Manager, Defense Contract Audit Agency Chesapeake Bay Branch Office, ensure
adequate documentation of judgmental sampling plans and audit work conducted to
achieve the objectives of Office of Management and Budget Circular A-133 audits. In
addition, we recommend that the Branch Manager ensure that draft audit reports are
cross-referenced in accordance with Defense Contract Audit Agency guidance.

Management Comments. The Branch Manager, DCAA Chesapeake Bay Branch Office
concurred and stated that managers have placed strong emphasis on documentation
during recent staff conferences. In addition, the Branch Manager stated that his office
will review current procedures and ensure that a cross-referenced version of the draft
audit report is maintained in the audit documentation for future audits.

Finding C. Reporting Inconsistent with OMB Circular A-133 Requirements. The
DCAA report opinion on compliance with Federal program requirements and the report
on the SEFA were not prepared in accordance with auditing standards and the
requirements of OMB Circular A-133. As a result of the DCAA departure from the
standard reporting language, it is unclear whether the scope of the DCAA audit met the
Circular requirements.

        Opinion on Compliance with Federal Program Requirements. The DCAA
audit report incorrectly contained a “qualified” opinion on compliance with Federal
program requirements. The DCAA qualified the report due to a potential Cost
Accounting Standards noncompliance issue related to the accounting for
Intergovernmental Personnel Act costs. However, the information on the compliance
opinion in the summary of audit results section (Schedule of Findings and Questioned
Costs) was inconsistent with the “qualified” opinion in the report. The Schedule of
Findings and Questioned Costs noted that the compliance opinion was “unqualified.”
Because the audit documentation did not support the decision to qualify the report on
compliance, we discussed both the basis for the report qualification and the inconsistency
in the presentation of audit results within the single audit report with DCAA personnel.


                                            7
Based on our discussions, DCAA management did not consider the noncompliance
material enough to impact the overall opinion on compliance. Under those circumstances
the auditor’s report on compliance should have contained an “unqualified” opinion.
DCAA needs to reissue the report to reflect the proper opinion on compliance with
Federal program requirements.

         Report on the Schedule of Expenditures of Federal Awards. The DCAA audit
report on the SEFA does not meet the requirements of OMB Circular A-133. OMB
Circular A-133 ___.505(a) requires auditors to “determine whether the SEFA is presented
fairly in all material respects in relation to the auditee’s financial statements taken as a
whole” [OIG emphasis]. However, the DCAA audit report states that the SEFA “…with
regard to the research and development program is fairly stated in all material respects, in
relation to the financial records taken as a whole” [OIG emphasis]. We discussed this
issue with DCAA personnel who agreed that the wording was not in accordance with the
requirements but stated their belief that by auditing to the financial records, they had
done more work than was required. However, the auditors did not provide any further
explanation to support the need to vary the report language and there was no explanation
in the audit documentation. The requirement to express an opinion on the SEFA in
relation to the financial statements is intended to provide assurance that the information
provided to Federal agencies is not materially inconsistent with the information in the
audited financial statements. DCAA auditors need to revise the FY 2001 OMB Circular
A-133 audit report so that it contains the required language, or they need to provide
further explanatory comments in the report as appropriate.

Recommendation C. We recommend that the Branch Manager, Defense Contract Audit
Agency Chesapeake Bay Branch Office reissue the Office of Management and Budget
Circular A-133 audit report for the Institute of Defense Analyses for FY 2001 to
accurately reflect the results and conclusions of the audit and include required language.

Management Comments. The Branch Manager, DCAA Chesapeake Bay Branch Office
concurred in principle and stated that although the auditors did not follow OMB Circular
A-133 and DCAA guidance, he believed that “the usefulness of modifying and reissuing
the report at this time is uncertain.” The Branch Manager agreed to an alternative action
whereby he would obtain written confirmation from the IDA Board of Directors or the
Audit Committee of their concurrence with proposed alternative actions and provide the
written confirmation to us. The Branch Manager stated in a followup conversation that
he would include a statement in a “corrections page” that accurately reflects the result
and conclusions of the audit and the required language if actions taken in response to
Recommendations A.1., A.2., and B. necessitate such a page.

Reviewer Response. We consider the Branch Manager’s proposed actions responsive.

Finding D. Presentation of Schedule of Expenditures of Federal Awards. The SEFA
did not include a note that described the significant accounting policies used in preparing
the schedule. OMB Circular A-133 Section §__.310(b)(4) specifically requires this
information be included in the schedule. As a result, Federal program officials may not
be able to fully use the SEFA in their monitoring efforts. We discussed this requirement
with IDA personnel and were advised that they were unaware of the requirement to
prepare the schedule with this information and would ensure that the schedule is properly
prepared in future audits.



                                             8
Appendix A. Quality Control Review Process
Scope and Methodology
We conducted a quality control review of the PwC and DCAA audit of IDA for the fiscal
year ended September 28, 2001, and the resulting reporting package that was submitted
to the Federal Audit Clearinghouse dated August 12, 2002. We performed our review
using the 1999 edition of the “Uniform Quality Control Guide for the A-133 Audits” (the
Guide). The Guide applies to any single audit that is subject to the requirements of OMB
Circular A-133 and is the approved President’s Council on Integrity and Efficiency
checklist used for performing quality control reviews. Our review was conducted from
May 2003 through June 2004. As the cognizant agency for IDA, we focused our review
on the following qualitative aspects of the single audit:

       •   Qualification of auditors

       •   Independence

       •   Due professional care

       •   Planning and supervision

       •   Internal control and compliance testing

       •   Schedule of Expenditures of Federal Awards

       •   Schedule of Findings and Questioned Costs

       •   Summary Schedule of Prior Audit Findings

       •   Data Collection Form

In conducting our review, we reviewed the audit documentation that PwC and DCAA
prepared. We also discussed the audit with the PwC audit team; DCAA auditors; and
IDA personnel.

Prior Quality Control Reviews
Since October 1, 1998, we have performed six quality control reviews of PwC OMB
Circular A-133 audits. One of the six reports contained deficiencies resulting in findings
and recommendations on audit planning, performance, and documentation, and two
reports contained suggestions for improvements to audit documentation and continuing
professional education.

Since October 1, 1998, we have performed seven quality control reviews of DCAA OMB
Circular A-133 audits. Four of the seven reports contained deficiencies resulting in
findings and recommendations on audit planning, performance, and documentation. Our
review indicates that similar deficiencies still exist.


                                            10
Copies of OIG DoD reports can be accessed over the Internet at
http://www.dodig.osd.mil/audits/reports.

Single Audit Requirements
The intention of the Single Audit Act, Public Law 98-502, as amended, and OMB
Circular A-133 was to improve the financial management of state and local governments
and non-profit organizations. The Single Audit Act and OMB Circular A-133 establish
one uniform set of auditing and reporting requirements for all Federal award recipients
required to obtain a single audit. OMB Circular A-133 establishes policies that guide
implementation of the Single Audit Act and provides an administrative foundation for
uniform audit requirements of non-Federal entities administering Federal awards.
OMB Circular A-133 requires that Federal departments and agencies rely on and use the
single audit work to the maximum extent practicable. Entities that expend $300,000 or
more of Federal awards in a fiscal year are subject to the Single Audit Act and the audit
requirements in OMB Circular A-133 and, therefore, must have an annual single or
program-specific audit performed under GAS. To meet the intent of the law and
OMB Circular A-133 requirements, the auditee (non-Federal entity) submits to the
Federal Audit Clearinghouse a complete reporting package and a Data Collection Form
on each single audit. The submission includes the following:

       •   Data Collection Form, certified by the auditee that the audit was completed in
           accordance with the OMB Circular A-133;

       •   Financial statements and related opinion;

       •   Schedule of Expenditures of Federal Awards and related opinion;

       •   Report on compliance and internal control over financial reporting;

       •   Report on internal control over compliance for major programs;

       •   Report on compliance with requirements for major programs and related
           opinion;

       •   Schedule of Findings and Questioned Costs;

       •   Summary Schedule of Prior Audit Findings; and

       •   Corrective action plan, when appropriate.

The OMB Compliance Supplement (the Supplement) assists auditors to identify
compliance requirements the Federal Government expects to be considered as part of the
single audit. For each compliance requirement, the Supplement describes the related
audit objectives that the auditor shall consider in each audit conducted under OMB
Circular A-133 as well as suggested audit procedures. The Supplement also describes the
objectives of internal control and characteristics that, when present and operating
effectively, may ensure compliance with program requirements. The following 14
compliance requirements identified in the Supplement are applicable to the research and
development cluster.



                                           11
       A.   Activities Allowed/Unallowed
       B.   Allowable Costs/Cost Principles
       C.   Cash Management
       D.   Davis-Bacon Act
       E.   Eligibility
       F.   Equipment and Real Property Management
       G.   Matching, Level of Effort, Earmarking
       H.   Period of Availability of Federal Funds
       I.   Procurement and Suspension and Debarment
       J.   Program Income
       K.   Real Property Acquisition and Relocation Assistance
       L.   Reporting
       M.   Subrecipient Monitoring
       N.   Special Tests and Provisions

The Statement of Position 98-3, “Audits of States, Local Governments, and
Not-for-Profit Organizations Receiving Federal Awards,” published by the American
Institute of Certified Public Accountants, provides guidance on auditor responsibilities
for conducting audits according to the Single Audit Act and OMB Circular A-133 (the
American Institute of Certified Public Accountants converted the Statement of Position
into an audit guide in May 2003). In general, the Statement of Position 98-3 provides
auditors with an understanding of the unique planning, performance, and reporting
considerations for single audits performed under GAS. In addition, the Statement of
Position 98-3 uses summary tables and detailed discussions to provide the auditor with an
understanding of the additional general, fieldwork, and reporting requirements under
GAS, including the additional standards relating to quality control systems, continuing
professional education, audit documentation, audit followup, and reporting.

The Statement of Position 98-3 emphasizes that when planning an audit to meet the
requirements of OMB Circular A-133, several factors should be considered in addition to
those ordinarily associated with an audit of financial statements in accordance with
Generally Accepted Auditing Standards and GAS. The factors include but are not limited
to:
       •    Determining that the Schedule of Expenditures of Federal Awards is presented
            fairly in relation to the financial statements;

       •    Determining major programs for audit using a risk-based approach;

       •    Determining applicable and material compliance requirements;

       •    Gaining an understanding of internal control over Federal programs;

       •    Testing internal control over major programs;

       •    Determining compliance with laws, regulations, and the provisions of contract
            or grant agreements that have a direct and material effect on each major
            program; and

       •    Satisfying the additional requirements of the Single Audit Act and OMB
            Circular A-133 regarding audit documentation, audit followup, and reporting.


                                           12
Appendix B. Coordinated Audit Responsibilities
PwC and DCAA coordinated the audit responsibilities for the FY 2001 OMB Circular
A-133 audit of IDA. PwC performed all audit work related to the financial statements.
DCAA performed all audit work related to the major program (including compliance with
all 14 compliance requirements referenced in Appendix A). The following is a
breakdown of audit responsibilities:


    Required Areas Under OMB Circular A-133                Audit Responsibilities

                                                             DCAA           PwC

 Opinion on Financial Statements                                             X

 Compliance and Internal Controls Over Financial                             X
 Reporting

 Opinion on the Schedule of Expenditures of Federal             X
 Awards

 Internal Control Over Compliance for Major Programs            X

 Compliance With Requirements for Major Programs and            X
 Related Opinion

 Schedule of Findings and Questioned Costs                      X

 Preparation of the Data Collection Form                        X            X




                                           13
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement and Acquisition Policy

Other Defense Organizations
Director, Defense Contract Audit Agency
   Assistant Director, Policy and Plans, Defense Contract Audit Agency
   Branch Manager, Defense Contract Audit Agency Chesapeake Bay Branch
Director, Defense Contract Management Agency
   Administrative Contracting Officer, Defense Contract Management Agency Baltimore
Director, National Security Agency

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General of the Air Force

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, U.S. Army Audit Agency

Non-Government Organizations
Board of Trustees, The Institute for Defense Analyses
Audit Committee, The Institute for Defense Analyses
Treasurer and Director of Finance, The Institute for Defense Analyses
Controller, The Institute for Defense Analyses
Partner in Charge, PricewaterhouseCoopers, LLP
Audit Manager, PricewaterhouseCoopers, LLP




                                           14
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, Committee on
  Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        15
Defense Contract Audit Agency Comments




                    17
18
19
20
Institute for Defense Analyses Comments




                      21
22
Evaluation Team Members
The Deputy Inspector General for Inspections and Policy, Office of the Inspector General
of the Department of Defense prepared this report. Personnel of the Office of the
Inspector General of the Department of Defense who contributed to the report are listed
below.

Carolyn R. Davis
Janet Stern
Laura A. Rainey
Monica M. Harrigan
Ashley Harris
